<html>
<title> - U.S. DEPARTMENT OF STATE COUNTERTERRORISM BUREAU: ENSURING RESOURCES MATCH OBJECTIVES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


               U.S. DEPARTMENT OF STATE COUNTERTERRORISM
                    BUREAU: ENSURING RESOURCES MATCH
                               OBJECTIVES

=======================================================================

                                HEARING

                               BEFORE THE

                          SUBCOMMITTEE ON TERRORISM,                          
                         NONPROLIFERATION, AND TRADE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 14, 2018

                               __________

                           Serial No. 115-170

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 
                       or http://www.govinfo.gov

                                
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-772PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f7908798b7948284839f929b87d994989ad9">[email&#160;protected]</a>                                
                                
                                
                                
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida [until 9/10/   JOAQUIN CASTRO, Texas
    18] deg.                         ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah
VACANT

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 
                                 
                                 ------                                

         Subcommittee on Terrorism, Nonproliferation, and Trade

                        TED POE, Texas, Chairman
JOE WILSON, South Carolina           WILLIAM R. KEATING, Massachusetts
DARRELL E. ISSA, California          LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
SCOTT PERRY, Pennsylvania            DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
BRIAN J. MAST, Florida               BRADLEY SCOTT SCHNEIDER, Illinois
THOMAS A. GARRETT, Jr., Virginia
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Nathan Alexander Sales, Coordinator for 
  Counterterrorism, Bureau of Counterterrorism and Countering 
  Violent Extremism, U.S. Department of State....................     8

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas, and chairman, Subcommittee on Terrorism, 
  Nonproliferation, and Trade: Prepared statement................     4
The Honorable Nathan Alexander Sales: Prepared statement.........    10

                                APPENDIX

Hearing notice...................................................    34
Hearing minutes..................................................    35

 
                        U.S. DEPARTMENT OF STATE
                   COUNTERTERRORISM BUREAU: ENSURING
                       RESOURCES MATCH OBJECTIVES

                              ----------                              


                      WEDNESDAY, NOVEMBER 14, 2018

                     House of Representatives,    

        Subcommittee on Terrorism, Nonproliferation, and Trade,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172, Rayburn House Office Building, Hon. Ted Poe 
(chairman of the subcommittee) presiding.
    Mr. Poe. The subcommittee will come to order. Without 
objection, all members may have 5 days to submit statements, 
questions, extraneous materials for the record, subject to the 
length limitation in the rules. I will now use my time to make 
an opening statement, and then I will turn it over to the 
ranking member.
    Before I go into the details of this particular hearing, I 
want to publicly comment on the good work and relationship that 
the chair has had with the ranking member, Mr. Keating from 
Massachusetts. We both are former prosecutors, and he brings a 
good tone to this committee and the full committee, as well.
    And I want to thank him for the easy way it has been for us 
to work together while I have been chair of this committee. We 
don't always agree, but we get along quite well. I think our 
subcommittee especially, and the Foreign Affairs Committee, do 
an excellent job of bipartisan work. You never hear about it 
because we are not fussing and fighting and feuding.
    So I want to thank him publicly for his role in the last 
several years on this subcommittee. And I don't know what the 
future holds, but you may be chair of this committee or another 
one come January the 2nd. But thank you very much for the 
bipartisanship and relationship that we both have had together.
    The threat of terrorism remains a deadly challenge for us 
and our allies around the globe. In the last 4 years we have 
seen the ability of terrorist groups--many of which we had 
thought were defeated--to evolve and attract thousands and 
recruit others for their violent cause. ISIS, al-Qaeda, Iran, 
and all their affiliates and their proxies are very active and 
waiting in the shadows for an opportunity to strike again.
    Although we have made great progress against these 
terrorists on the battlefields of Iraq, Syria, Libya, and 
Afghanistan, the gains are fragile. Last week a report by the 
Pentagon warned that ISIS fighters have moved underground and 
are regrouping. Many of those terrorists that were in the 
Middle East have been run out of Middle East and fled to Africa 
and are regrouping and causing mischief there.
    We must not become complacent. We must continue to be 
vigilant until those ideologies that motivate violent extremism 
are cast into the dustbin of history.
    I applaud the White House's new National Strategy for 
Counterterrorism. This document drastically changes the U.S. 
Government's perspective on the war on terrorism. It correctly 
frames the battle in terms of an enduring challenge that must 
be managed to protect the homeland, instead of a mission that 
has a beginning and an end. It clearly recognizes the broad and 
diverse challenges we face from terrorism, including Iran's 
growing network of terrorist proxies and the ability of 
terrorists to exploit cyberspace.
    The strategy prioritizes countering terrorist use of the 
internet for radicalization, recruitment, and fundraising, 
three things that I have long made clear that is why they use 
the internet. Many times they use our own platforms to 
radicalize, to recruit, and to fundraise.
    This is a priority I introduced into the State Authorities 
bill last Congress, and I am glad to see the White House is 
taking this seriously.
    The strategy also makes it clear that this fight is not 
America's burden alone. International partners play an 
important role and we can empower them by bolstering their 
capabilities and increasing cooperation. After all, we are all 
in this together.
    That is where the State Department's Counterterrorism 
Bureau comes in. Created in 1972 in response to the Munich 
Olympics attack, the Bureau forges partnerships with foreign 
governments, multilateral organizations, and NGOs to coordinate 
and advance U.S. Counterterrorism objectives that enhance 
global security as well as our own.
    Under that broad mission, it has several core 
responsibilities, including coordinating strategy across the 
State Department and other agencies, conducting 
counterterrorism diplomacy, and building capacity of partner 
nations to address terrorist threats within their own.
    Given the enduring threat from terrorism that we and our 
allies face, it is crucial that the CT Bureau does its job 
effectively and efficiently. It is our job in Congress to make 
sure that the American taxpayers are getting their money's 
worth. When we are talking millions of dollars going toward 
programs abroad, the people in my district are right to demand 
how it contributes to their personal safety and security and 
the security of our Nation.
    This is all the more important given that the Bureau has 
had significant funding cuts over recent years. With limited 
resources every penny must be spent wisely.
    For example, the State Department's inspector general filed 
a report last year that found much of the antiterrorism 
assistance we had given to Pakistan was not even being used, 
including dozens of courses not implemented in Pakistan. I 
pleased to hear that the Bureau has since repurposed many of 
the resources that had been sent to Pakistan to other more 
worthwhile programs.
    Effective monitoring and evaluation programs are crucial in 
spotting what is not working and making changes that do. For 
instance, we need assurances that the programming initiated and 
implemented by the CT Bureau to prevent radicalization actually 
works. Is the Bureau still in the business of ``countering 
violent extremism''? If so, has the Bureau developed any 
mechanisms to prove that such programs are working at all?
    Ambassador Sales, I appreciate your strong comments against 
Iranian-backed terrorism yesterday at the Washington Institute. 
As you know, I am eager to see our Government go a step further 
than just designating the IRGC for terrorist activity. If we 
mean business, we must go after Iran's terrorist proxies in 
Iraq and Syria. Iran is playing us because they use terrorist 
proxies instead of the IRGC to spread terrorism in the region.
    I do applaud the Treasury's designation yesterday of four 
Hezbollah-affiliated terrorists in Iraq. Now the State 
Department must follow suit and finally designate groups like 
AAH and HHN for what they are: They are foreign terrorist 
organizations that have blood of Americans on their hands. At 
the very least, their affiliation with the IRGC should be 
enough to meet the criteria to designate them.
    Ambassador Sales, thank you for your important work and for 
being here today. I look forward to your testimony.
    Now I will turn it over to the ranking member, Mr. Keating 
from Massachusetts, for his opening comments.
    [The prepared statement of Mr. Poe follows:]
 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Keating. Thank you, Mr. Chairman. And since this will 
be our last hearing, I just want to thank you for your work. I 
think it shows a great deal in Congress right now where a 
conservative Republican from Texas joins with a progressive 
Democrat from Massachusetts----
    Mr. Poe. That is pretty bipartisan, isn't it?
    Mr. Keating. That is as much as it can get, but in a good 
way. And although many of these things might have been lost in 
the news cycle, because we work together so smoothly, it hasn't 
been lost internationally. I can think of our work together 
trying to bring support to a country that has great concerns 
over their head in Georgia, working together on that; working 
on the tariff issue, something that was noticed strongly, 
particularly by the European Union countries, where we made our 
bipartisan voice heard on our concern for some of those moves; 
as well as keeping Saudi Arabia's feet to the fire on issues 
and some of their promises.
    So we have worked together on those issues and many other 
issues together, and I will miss working with you. You have 
decided to go another way, and that is just the way it is. I 
can say that for the last time.
    And I would like to thank you for holding this hearing with 
Ambassador Sales today returning again to the subcommittee to 
discuss the Bureau's budget and policy objectives.
    I look forward to your testimony today now that you are a 
full year into your duties in this role.
    Fighting terrorism is also not solely the function of the 
military. That is not how it works in the United States 
fighting domestic terrorism, and it is not long-term strategy 
for how it can be worked successfully abroad in other 
countries. Capacity building for law enforcement, improving 
governments, and rule of law to address systematic grievances 
in communities, it is critical, and we need to put the proper 
funding behind these and other efforts if we are going to have 
a counterterrorism strategy that is successful in the long 
term.
    I am, therefore, concerned by the State Department's 
request for less funding overall, and specifically for 
antiterrorism programs. I don't know how we can expect any 
gains made by our military to last if we don't back up their 
hard-fought efforts with robust work through our State 
Department and USAID engagements.
    What is more, terrorist capacities are evolving with 
increased concerns over cyber attacks or the use of weapons of 
mass destruction, like a chemical attack. We are still working 
tirelessly to make a lasting, significant dent in familiar 
terrorist threats, let alone the new ones. So a request for 
less funding to meet these new demands gives me pause, to say 
the least.
    I am also saddened as threats for terrorism are actually 
getting worse in Afghanistan and as the conflict and 
humanitarian crisis in Yemen wears on at the expense of tens of 
thousands of lives lost and millions impacted, producing the 
perfect stage for extremism to take root for generations to 
come. Neither of these countries receives attention in recent 
national counterterrorism strategies issued by the White House, 
nor do any of the regions where ISIS fighters have traveled to 
or where their so-called caliphates have emerged reach that 
level.
    You have an important job. Our Government has struggled for 
a long time trying to get counterterrorism right. The stakes 
are high. Americans are victims of foreign terrorists and of 
domestic terrorists. And we learn more and more every day about 
how many ways we can try to tackle this problem.
    There is no easy answer, but there are themes, and I look 
forward to discussing what your Bureau is doing along these 
lines. For example, what your Bureau is doing to coordinate 
with other State Department, USAID, and Defense Department 
entities to minimize fragility and instability in places where 
radicalism efforts may more easily take hold.
    These and many other issues I hope to cover today on our 
counterterrorism and CVE strategies. So I look forward to 
discussing with you whether and how these efforts to shape and 
effectively implement them are sufficiently resourced and 
coordinated at the State Department as part of the 
administration's whole-of-government approach to these issues.
    With that, Mr. Chairman, I yield back.
    Mr. Poe. I thank the gentleman from Massachusetts.
    The chair will recognize the gentleman from Illinois, Mr. 
Schneider, for an opening statement.
    Mr. Schneider. Thank you. And I want to echo the remarks of 
my colleague to the chairman. I have appreciated working with 
you and wish you well in your next chapter. You will be missed 
here greatly, but thank you for all you have done.
    Ambassador Sales, thank you for joining us. My focus, 
having reviewed your testimony, also reviewing your remarks 
yesterday at the Washington Institute, threats, terrorist 
threats are increasing around the world. They are increasing in 
geography and complexity. They are increasing in intensity. And 
yet, the request from the administration appears to be drawing 
back or at least reducing our investment in fighting against 
those threats. I am very concerned about that and look forward 
to your remarks there.
    I do appreciate your remarks yesterday about Iran. Iran is 
the number one state sponsor of terror, they are a threat, not 
just in the region, around the world. Within the region, their 
support for Hezbollah, the fact that Hezbollah is increasingly 
strong, war-tested, developing indigenous missile manufacturing 
capability to threaten Israel and the region is of great 
concern.
    So my request is that we continue to stay focused. And I 
look forward to hearing your remarks about how we intend to 
fight against these threats.
    With that, I yield back.
    Mr. Poe. I thank the gentleman.
    Ambassador Nathan Sales is the coordinator for 
counterterrorism at the State Department. Ambassador Sales was 
previously a law professor at Syracuse University of Law, and 
before that deputy assistant secretary for policy at the 
Department of Homeland Security.
    Ambassador Sales, we all have your written testimony, and 
if you can limit your testimony to 5 minutes, then we will ask 
you questions. You are recognized. Thank you.

STATEMENT OF THE HONORABLE NATHAN ALEXANDER SALES, COORDINATOR 
FOR COUNTERTERRORISM, BUREAU OF COUNTERTERRORISM AND COUNTERING 
          VIOLENT EXTREMISM, U.S. DEPARTMENT OF STATE

    Ambassador Sales. Well, thanks very much, Chairman Poe and 
Ranking Member Keating, for hosting this hearing today. It is a 
pleasure to be back before the subcommittee.
    Let me just say, Mr. Chairman, we will miss you. I will add 
the State Department's words of well wishes as you move on to 
the next chapter. Thank you for your service over the years, 
particularly on the problem of terrorism.
    And, Mr. Ranking Member Keating, it is a pleasure to see 
you again. I look toward to working with you in the next 
Congress in this committee or in another capacity.
    Thanks for the opportunity to be here to talk to you about 
the work of the State Department's Counterterrorism Bureau and 
our ongoing efforts to protect the American people and our 
interests from the threat of terrorism at home and abroad.
    I would like to start by highlighting a few of the key 
points in the administration's counterterrorism strategy, which 
we released on October 4. This is the fourth strategy that the 
U.S. Government has released since 9/11 and the first one since 
2011. It reflects today's fluid, complex, and diverse terrorist 
landscape and lays out the administration's plan for defeating 
our terrorist adversaries.
    The strategy sets forth a comprehensive whole-of-government 
approach that relies not just on military tools, but on 
civilian tools as well. In addition, we are not focusing on one 
or two particular terrorist groups, but on the full spectrum of 
terrorist organizations that could threaten our interests. In 
the same way, we are not focusing on particular geographic 
regions. Instead our strategy sets forth foundational 
principles and priorities that we will pursue globally. The 
strategy renews our commitment to defeating global terrorist 
organizations and networks like al-Qaeda and ISIS.
    In addition, it is no secret, certainly not to this 
subcommittee, that Iran remains the world's leading state 
sponsor of terrorism. Tehran spends nearly $1 billion a year to 
support its terrorist proxies, $1 billion a year. The regime 
has a truly global reach and we must elevate our efforts to 
counter its destructive influence around the world.
    Our strategy is an America first strategy, but that does 
not mean America alone. Quite the contrary, in fact. Terrorism 
is a global threat and all nations have a role to play in 
countering it. Our strategy specifically highlights the need to 
leverage existing counterterrorism partnerships and develop now 
ones, and to build our partner's capabilities. Our goal is for 
our partners to be able to confront the terrorist threats they 
face independently, without needing to routinely turn to the 
United States for assistance.
    Let me quickly run through some of our most important 
efforts.
    First, countering Iran and its terrorist proxies is a top 
priority for the Trump administration. We are using all of our 
tools to counter these deadly threats. We are pressing for 
greater international action against Hezbollah and delivering 
this message to our diplomatic partners at high levels.
    We are also helping our partners develop the capabilities 
they need to uncover and dismantle Iran's networks. So far this 
year the administration has announced over 120 designation 
actions against Iran-backed entities and individuals under our 
counterterrorism authorities, 120.
    Just yesterday, the State Department announced two new 
Iran-related designations. We sanctioned Jawad Nasrallah, a 
rising Hezbollah figure, and the son of Hassan Nasrallah, the 
group's secretary general. We also designated the Al-Mujahidin 
Brigades, a terrorist group that has operated in the 
Palestinian territory since 2005 and whose members have plotted 
a number of attacks against Israeli targets. These State 
Department actions are in addition to the Treasury Department 
actions that you have already mentioned.
    Second, the administration is focused on cutting off the 
flow of money to terrorism. We don't just want to stop the 
bomber, we want to stop the money man who pays for the bomb. So 
far this year my Bureau has announced 50 terrorist designation 
actions against groups and individuals under our foreign 
terrorist organization authorities, as well as under Executive 
Order 13224. We are also building the capacity of our partners 
to investigate, prosecute, and interdict funding to and 
facilitators of terrorism.
    Third, we are working to disrupt terrorist travel. We are 
leading the charge on greater information sharing and promoting 
effective screening and watchlisting around the world. These 
efforts received a powerful boost last December when the U.N. 
Security Council adopted Resolution 2396, which includes a 
number of new tools that will be mandatory for the 
international community to adopt, including the use of 
passenger name record data or PNR. In short, the resolution 
take a number of critical counterterrorism measures that the 
United States pioneered after 9/11 and makes them global 
standards.
    Fourth, we are addressing the threats from foreign 
terrorist fighters and home-grown terrorists. Although foreign 
terrorist fighters are no longer streaming into the war zone in 
large numbers, we are focusing on them leaving the war zone, 
returning to their home countries or third countries.
    I see that my time has expired. The last thing I will say 
is that we are focusing on prevention and keeping the next 
generation of terrorists from emerging in the first place. And 
this is why our efforts to combat terrorist ideology and to 
combat recruitment are so critical.
    Mr. Chairman, Mr. Ranking Member, and all the members of 
the subcommittee, the terrorist threat is constantly evolving, 
and it is incumbent upon us as a government, and with our 
allies, to adapt along with that threat. My Bureau and I 
greatly appreciate Congress' efforts and support in this shared 
endeavor. I look forward to your questions and our 
conversation.
    [The prepared statement of Ambassador Sales follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                              ----------                              

    Mr. Poe. I recognize myself for some questions. Thank you 
again, Ambassador Sales, for being here.
    You said the Iranian Government spends $1 billion a year on 
their Iranian proxies? Is that what you said?
    Ambassador Sales. That is right.
    Mr. Poe. And we spend about what, about $230 million a year 
for your Bureau. Is that right?
    Ambassador Sales. That was the request for fiscal year 
2019, sir.
    Mr. Poe. How much do we spend?
    Ambassador Sales. The numbers have fluctuated. In recent 
years it has been 222, 235, 400.
    Mr. Poe. All right. It is a quarter of what the Iranians 
spend on causing terror throughout the world. And we are 
spending a quarter of that trying to go after their proxies 
through your agency. That is the point I was trying to make.
    We have no CT Bureau in South America. Is that correct?
    Ambassador Sales. Well, my Bureau is actively involved with 
South American partners, sir.
    Mr. Poe. What does that mean?
    Ambassador Sales. It means that we are trying to get the 
governments of South America to work with us to confront the 
full range of terrorist threats----
    Mr. Poe. So we want them to do it. We are trying to get 
them to do it.
    Ambassador Sales. We are trying to get them to do it, yeah.
    Mr. Poe. Okay. But we are not actively involved, we are 
working through other countries, like maybe Colombia?
    Ambassador Sales. Well, Congressman, we are actively 
involved, but our goal is to enable South American partners to 
do it themselves rather than turn to us for constant help.
    Mr. Poe. I understand.
    How many proxies do the Iranians have working for them?
    Ambassador Sales. Dozens. Hezbollah is the best known.
    Mr. Poe. I am not looking for a number. I know Hezbollah is 
the bad guy in the neighborhood. But how many proxies do have 
they have throughout the world? Do you have a number?
    Ambassador Sales. I don't think there is a definitive 
number, but we can go through the list. And it is a very 
undistinguished list of bloodshed, groups like Hezbollah, 
groups like HHN and AAH that you mentioned, the al-Ashtar 
Brigade in Bahrain, various other militia groups in Iraq, 
throughout the region and around the world. They are not shy 
about using proxies to commit terrorism around the world.
    Mr. Poe. So rather than use the IRGC, which is a terrorist 
group, they just use another proxy, and that way they can deny 
culpability because this proxy is doing their bidding.
    Ambassador Sales. Yes, sir.
    Mr. Poe. Is that a fair statement?
    Ambassador Sales. In some cases they do that, sir. 
Sometimes they act directly and sometimes through proxies and 
cutouts.
    Mr. Poe. Okay. Why hasn't the State Department, why hasn't 
the government, our Government, designated AAH and HHN as 
terrorist proxies of Iran?
    Ambassador Sales. Well, sir, we are certainly concerned 
about the violent activities that those groups are carrying 
out. As you well know, Iranian-backed militias in Iraq, 
speaking generally now, launched rockets at our Embassy in 
Baghdad, launched rockets at our consulate in Basra. And the 
threat environment has gotten to the point where we judged it 
necessary to suspend operations at Basra consulate.
    Mr. Poe. Specifically, Ambassador, why haven't we 
designated those two Iranian proxies as terrorist groups?
    Ambassador Sales. Well, sir, I don't have anything to 
announce for you today, but I can assure you that we are 
looking at the full range of terrorist proxies backed by Iran 
and the way to take appropriate action against them.
    Mr. Poe. It seems to me that the Embassy in Baghdad is 
pushing against designating these two organizations as 
terrorist proxies. This summer we had part of this staff go to 
Baghdad and ask that they support designating these two groups 
as terrorist organizations, and they got pushback from the 
State Department, said that that is not going to happen. And 
then shortly thereafter four rockets came into Baghdad from 
AAH.
    I am asking you to speculate here, but do you know why the 
State Department in Baghdad is obstinate about naming these two 
proxies, who now have 15 seats in the Iraqi Government, as 
terrorist groups?
    Ambassador Sales. Well, Mr. Chairman, I am reluctant to put 
words in the mouth of my colleagues in Baghdad, but I think 
that the rocket attacks in Baghdad and the rocket attacks in 
Basra in recent weeks and months have had a clarifying effect 
on our awareness of the threat that Iran poses to the region 
and to our forces.
    Mr. Poe. It seems to me that we are fighting an uphill 
battle when we have 15 members of these proxy groups in the 
Government of Iraq and we are not calling them out for being 
terrorists with American blood on their hands. So I would just 
hope that we would, our Government, the United States 
Government, would designate these two organizations as 
terrorist groups, proxies of Iran.
    And I agree with what you said about Iran, they are 
everywhere, they are all over the world, and they are causing 
terror. And they have shifted, as the ranking member has said, 
they have shifted their focus from maybe the Middle East and 
Syria to Africa. About 9/11, pre-9/11, there were apparently 
about 100 al-Qaeda members in Africa, and now there are about 
10,000 affiliates and al-Qaeda members in Africa.
    That is very disturbing. It is like moving from different 
place to different place. And Iran is behind all of this. And 
we need to make sure that Iran is held accountable and the 
other organizations are held accountable as well.
    Do you have enough money?
    Ambassador Sales. Well, Congressman, what I want is every 
dollar that I need to accomplish the mission that the President 
and the Congress have given me and not $1 more.
    Mr. Poe. Very diplomatic of you.
    I am going to turn over to the ranking member and let him 
ask questions.
    Mr. Keating. Thank you, Mr. Chairman. And I agree with both 
my colleagues here on Iran as a grave concern. But I want to 
move around some other areas.
    You know, what I am hearing in my district from people in 
terms of a question, and a concern, and maybe a fear, is this. 
I want to ask you straight out. Is there any reliable evidence 
that individuals traveling in the caravan from Central America 
up are known or suspected terrorists? Concrete evidence?
    Ambassador Sales. Mr. Ranking Member, any country has the 
right and indeed the responsibility to protect its borders and 
to make sure that only those persons are admitted who the 
government of that country----
    Mr. Keating. That is not what I asked you, sir. I asked you 
straight out. We should know as Members of Congress. Tell us if 
there are any suspected or actual terrorists traveling in that 
caravan.
    Ambassador Sales. Congressman, we would be happy to get you 
an answer to that question in an appropriate setting.
    Mr. Keating. Well, you could answer this publicly. Since 
the President has been public you should be able to be public. 
Yes or no? We don't have to know the details. He is causing 
fear in the American public, I could tell you, even in my 
district, about this.
    Now, a yes or a no is not classified, because he said so. 
So I want to know, in your position, what you say, yes or no. 
You can give us in classified additional specific information, 
should there be any, but yes or no.
    Ambassador Sales. Congressman, I would be happy to answer 
that question as well in a classified setting.
    Mr. Keating. Well, I am not happy with that answer, since 
the Commander in Chief seems comfortable telling the American 
public that and you don't. I can't force you to do it, but I 
think that is why you are here, and that is why we are here as 
Members of Congress as well.
    Let me shift gears, disappointingly. I want to know what 
activity you have on the counterterrorism front in efforts in 
Afghanistan and Yemen, as I mentioned. And also include in 
that, directly or indirectly, through armed sales or other 
means, how Russia could be involved in this and what evidence 
you have in that respect.
    Ambassador Sales. Let, me start with Afghanistan, sir. So 
in Afghanistan my Bureau, along with others at the State 
Department, is funding a $54 million program to boost the 
capability of Afghan forces to defend urban areas. In recent 
months we have seen the Taliban and Haqqani Network mount an 
aggressive series of attacks in urban areas, particularly in 
Kabul.
    So what we have been doing is providing training and 
resources and equipment to local officials to help them 
interdict operatives before they come into protected areas, to 
respond to crises in the heat of the moment, to do effective 
screening of potential threats, and to respond after a 
terrorist incident takes place.
    In Yemen, al-Qaeda in the Arabian Peninsula has long been 
one of al-Qaeda's most deadly affiliates with a global reach 
and with global ambitions. Of course, you will recall the 
printer cartridge plot from several years ago that was run out 
of Yemen. We continue to be actively engaged using whole-of-
government approaches, not just kinetic, but also nonkinetic 
civilian sector tools as well.
    In Yemen, we are doing things like boosting border security 
capabilities so that we can control movements of potential 
terrorists across borders, law enforcement and investigative 
capability, crisis response capability, and so on.
    Mr. Keating. You didn't answer my question about Russia.
    Ambassador Sales. Oh, yes. What was the question about 
Russia?
    Mr. Keating. Russia's involvement directly or indirectly 
through arm sales or other activities on terrorist activity in 
Afghanistan, for instance.
    Ambassador Sales. In Afghanistan. Yeah. In Afghanistan and 
Yemen, yes. So Russia obviously has had a long historical 
interest in Afghanistan, not all of that interest benign.
    I think the best way to answer that question would be--and 
this may not be a pleasing answer to you either--but I would be 
happy to answer in more detail in a classified setting.
    Mr. Keating. All right. Thank you for that.
    Now, in terms of your activity, how are you progressing 
with online activities, online terrorist activities?
    Ambassador Sales. Yeah, well, ISIS and its use of social 
media has been a game-changer in terms of their ability to 
inspire attacks remotely, as well as to recruit and radicalize 
people to come to the war zone.
    So what we need is for social media companies to do the 
responsible thing and take down radicalizing and extremist 
content that violates U.S. law or that violates the terms of 
service that they offer to their users.
    We have seen some decent results, but I think there is 
still more work to be done. Last year, a group of Silicon 
Valley companies formed a new organization, GIFCT, the Global 
Internet Forum to Counter Terrorism. The basic idea is for 
incumbent and prosperous companies to provide best practices to 
new entrants who may not have the resources, who may not have 
the expertise, and help them spot content and take it down in a 
responsible way.
    Mr. Keating. Okay. I am a little over, but I would like 
just to get back to the budget issue as well. You know, the 
chairman has mentioned the disproportionate nature with what 
Iran is spending and what we are spending, and we have just 
touched some of the many areas around the globe where there are 
concerns on the part of our country.
    How do you make any kind of sense to a budget cut in this 
important area? I mean, why is the budget being cut in an area 
where--two things, where the dangers are great and where our 
actions, particularly on the state-side, could save us money in 
the long run and save lives?
    Ambassador Sales. Well, Congressman, I think I would offer 
two answers to that question.
    First of all, taking the historical view, our fiscal year 
2019 budget request is broadly in alignment with historical 
appropriations levels. I am looking at my chart here. In 2013, 
we were appropriated $251 million. In 2014, it was 222. In 
2015, it was 235. We saw a spike in 2016 and 2017, as we saw 
one-time or rather two-time appropriations. The 237 number that 
we have requested for fiscal year 2019 thus represents a return 
to the pre-2016 norm.
    That said, of course Congress has the power of the purse, 
and whatever money Congress appropriates we will expend toward 
the mission that the Congress and the President have given my 
Bureau.
    The second thing I would say about funding to counter Iran 
in particular is, although our budget request is for $237 
million, which is a fraction of the $1 billion that Iran spends 
on terrorist proxies, we are not the only bureau, we are not 
the only agency charged with countering Iran-backed terrorism 
around the world. Other State Department bureaus, the 
intelligence community, the Defense Department, the Justice 
Department, the Treasury Department, are all team players as 
part of this effort.
    Mr. Keating. My time is overdue, so I yield back, Mr. 
Chairman.
    Mr. Poe. I thank the gentleman.
    The chair recognizes the gentleman from Illinois, Mr. 
Schneider.
    Mr. Schneider. Thank you, Mr. Chairman.
    Ambassador, the Counterterrorism Bureau's Countering 
Violent Extremism office shares and overlaps in many ways 
responsibilities with the Global Engagement Center.
    This summer, Congress, as part of the National Defense 
Authorization Act, passed a provision that I helped author to 
clarify the rules and the responsibilities of the GEC. How has 
that clarification changed the way that the CVE office and the 
GEC cooperate and work alongside one another?
    Ambassador Sales. Well, thanks for the question, 
Congressman. My Bureau's involvement in CVE issues, we are one 
cook in the kitchen with several other Michelin-starred chefs. 
So it is important for us to all coordinate together and for 
each player to bring to bear their unique comparative 
advantage. Like, what do we bring to this conversation that is 
special to us? And I think the value add that my Bureau brings 
to this effort is a focus on a couple of different priority 
areas.
    First of all, countering ideology. Our terrorist 
adversaries have a particular world view that is informed by 
various philosophical, religious, economic circumstances. What 
can we do, my Bureau asks, to counter the ideological 
architecture that eventually leads to radicalization and 
recruitment in terrorist attacks?
    Another thing that we are doing in my Bureau is working on 
deradicalization. After somebody has gone down the pathway 
toward terrorism, what can we do after they have been 
prosecuted, after they have served their time to bring them 
back into the fold. And in part this is a matter for government 
authorities, but it is also a problem to which we have to bring 
to bear all of society's expertise, medical professionals----
    Mr. Schneider. I don't mean to----
    Ambassador Sales. I don't want to filibuster.
    Mr. Schneider. I have limited time. So thank you. I 
appreciate that.
    Shifting gears a bit here. Compared to a year ago, what is 
your sense, can you describe Iran's comparative strategic 
position in Iraq, Syria, Lebanon, Yemen? Are they stronger? Are 
they weaker? What is different today than a year ago?
    Ambassador Sales. Well, I think what is different today is 
that the U.S. Government has brought to bear more of the tools 
at our disposal to cut off the money that Iran uses to fund 
terrorism around the world. As you know, we announced the 
snapback of sanctions just last week, and our goal is to get 
Iranian oil exports down to zero. That is a significant 
economic windfall for the regime. I believe 80 percent of their 
revenues derive from their energy exports.
    As we squeeze them, they are going to have to make some 
really hard choices about how they divert their increasingly 
scarce resources to address domestic needs or to project power 
and bloodshed around the world.
    Mr. Schneider. What, if any, actions have you seen that 
would give you confidence that they are drawing back and 
cutting resources for Hezbollah, their proxies in Syria, and 
other places?
    Ambassador Sales. Well, I think the jury is still out on 
that because we are very early into our maximum pressure 
campaign. What we want to see is with a drawdown in forces in 
Syria, a drawdown in support to the Houthis, who are launching 
missiles into Saudi Arabia and UAVs into the United Arab 
Emirates, a drying up of the financial resources that Hezbollah 
seeds from all around the world.
    There is a robust fundraising network for them in South 
America and Africa and around the world. So we are attacking 
all of those different nodes of the Iran threat network to dry 
up the resources.
    Mr. Schneider. But the snapback of sanctions last week was 
long anticipated. Have you seen actions within Iran signaling 
to their proxies they are going to have to make due with less? 
Or has there been a continued investment in those 
organizations, like Hezbollah, to continue their nefarious 
activities?
    Ambassador Sales. Well, what we have seen publicly is a 
rush for the exits in the private sector. Businesses----
    Mr. Schneider. That is not what I am asking. I am asking, 
has the leadership in Iran done anything that would indicate 
that they are going to cut their investment in these 
activities, the $1 billion you talked about? Is there anything 
signaling that they are going to reduce that $1 billion or is 
it still going to be running at the current rate?
    Ambassador Sales. What I can tell you in an open and 
unclassified setting is that we are seeing businesses respond 
to the pressure that we are bringing to bear. Companies are 
being forced to choose, ``Do I want to do business in the 
United States or in Tehran?'' and they are voting with their 
feet.
    Mr. Schneider. Right. I see that.
    Last question, and this is more general. Across the globe, 
looking forward, do you see the terrorist threats we face as a 
Nation that challenge our allies around the globe increasing or 
decreasing in the years to come?
    Ambassador Sales. I think they are decreasing in certain 
respects and changing in other respects. The decrease, let's 
use ISIS as an example. We have liberated virtually all the 
territory they once held in their false caliphate of Syria and 
Iraq. And let me just say that at least 50 percent of those 
territorial gains have come since January 2017. We are in 
better shape on the battlefield.
    Where we still have work to do is with ISIS-inspired 
attacks around the world, people who have never traveled to the 
battlefield but who have been radicalized by videos they saw on 
the internet. All it takes is a rental truck and they can 
commit a terrorist act.
    Mr. Schneider. To that point, ISIS has lost its territory, 
it hasn't lost its intent. And without territory, there are 
things that it cannot do, but with the internet, with other 
resources, they are able to reach and threaten not just America 
and Americans around the world, but our allies.
    Should we be reducing our investment to counter them or is 
this something we need to be looking toward increasing our 
investment, looking for leverage with allies, and making sure 
that we bring to bear, as you have said, the full government, 
all-of-government approach to address the threat, not just of 
ISIS, but of a number of these groups that seem to be growing 
in their ability to wreak havoc around the world?
    Ambassador Sales. Well, I think that is exactly right, 
Congressman, that is where the whole-of-government approach 
comes in, because as the military phase of the campaign draws 
down it is important for us to bring to bear other tools.
    So law enforcement, prosecuting ISIS fighters after they 
return home, making sure they face justice for their crimes; 
border security tools so that we can track them as they attempt 
to move internationally; designations and sanctions tools to 
cut off the flow of money to the various ISIS affiliates that 
have metastasized around the world; and various other civilian 
sector tools.
    Mr. Schneider. I may have heard you wrong, and I am way 
over, so I will close on this. But you indicated that we 
plussed up in 2015-2016 because of ISIS. Now we are going back 
down to levels of spending pre-ISIS. And it seems to me that we 
may be counting our chickens a little bit too early. We need to 
be thinking of different ways to counter this threat, but not 
resting on our heels and going back to the way things were, but 
looking forward to where we need to be in the future.
    Ambassador Sales. Well, the only thing, Congressman, if I 
may, before we leave this topic, the only other thing I would 
add to that conversation is if I felt like I didn't have the 
resources to do my job properly I would tell my boss, I would 
tell Congress. So I am satisfied with the resources we have 
requested, and we will expend whatever resources I am 
allocated.
    Mr. Schneider. Well, and in the future I look forward to 
continuing the conversation to see what impact we are having 
and hopefully have measurable results.
    Ambassador Sales. Likewise.
    Mr. Schneider. Thank you.
    Ambassador Sales. Thank you.
    Mr. Poe. I thank the gentleman.
    I have a few more questions. Going back to this list of 
proxies that I asked for earlier or mentioned, can you provide 
the committee a list of the Iranian proxies and where they are 
in the world?
    Ambassador Sales. Yeah, we are happy to do that, sir.
    Mr. Poe. Okay. We look forward to see seeing that.
    Also, do you think that AAH and HHN should be designated as 
terrorist organizations?
    Ambassador Sales. Well, Congressman, I am reluctant to 
speak publicly about a matter that----
    Mr. Poe. Excuse me for interrupting, but I am going to pull 
a Keating on you. Can you answer yes or no whether you think 
they should be listed or not?
    Ambassador Sales. I can't answer that, sir. But let me 
respectfully explain why I can't answer that question. I am not 
in a position to comment on internal executive branch 
deliberations that may or may not be taking place.
    If there is an announcement, we will make it in due course. 
If there is not an announcement, we would do that in due course 
as well.
    Mr. Poe. Well, I think they should be listed. I think we 
are having some problems with our representation of the U.S. in 
Baghdad, though, and how they are cozy up to Iranian proxies. I 
am very concerned about Iran influence in Iraq and trying to 
control the Iraqi Government. I think that is what they are 
trying to do. And part of the way they are doing it is with 
Iranian proxies that are in Iraq.
    Like I said, they have already got 15 members of their 
Parliament holding office, and we need to push back on their 
influence in Iraq.
    Afghanistan. We have been in Afghanistan a long time. How 
long are we going to stay in Afghanistan?
    Ambassador Sales. As long as conditions warrant.
    Mr. Poe. Indefinitely might be a fair answer. Would you say 
that?
    Ambassador Sales. Well, my understanding of the President's 
South Asia strategy is that our policy for Afghanistan is one 
that is conditions-based. We are not going to set an arbitrary 
deadline because that will just cause the terrorists to wait us 
out.
    Rather, we want a conditions-based approach under which the 
Afghan Government participates in a negotiated settlement with 
the Taliban, with other interested parties in the region, to 
ensure that we have a strong unity government that can deny 
safe haven. From a counterterrorism standpoint, that is really 
a critical piece of the conversation. We cannot afford to go 
back to a pre-2001 environment, in Afghanistan or elsewhere, 
where terrorists enjoy safe haven, because when terrorists 
enjoy safe haven they project power outward and attack us and 
our friends.
    Mr. Poe. I am not asking you to give us a definite date, I 
am not even saying that. But on the horizon, it looks like to 
me, as General Miller indicated to the Senate in June, that we 
are going to be there for a long time in Afghanistan because of 
the situation with the terrorists that are in that country. And 
Afghanistan has got to work their problems out.
    Are terrorists still coming from Pakistan into Afghanistan?
    Ambassador Sales. Well, Pakistan certainly needs to do 
more.
    Mr. Poe. Are they still coming from Pakistan into 
Afghanistan, terrorists?
    Ambassador Sales. We are very concerned about support for 
terrorism in any region of the world. And I can tell you, we 
have communicated to the Pakistani Government at the highest 
levels that we expect them to do more, just like we expected 
them to act with us after 9/11. And Pakistan has in the past 
been a very effective counterpart in taking the fight to al-
Qaeda. We need them to do the same thing with respect to the 
Haqqanis, Lashkar-e-Taiba, and the other terrorist groups that 
are active in the region.
    Mr. Poe. Well, I think they are not doing their job to 
fight terrorism because the terrorists come in from Pakistan 
into Afghanistan, do their mischief, and run back across the 
border. I think they have been doing that for years. And they 
take our money, millions of dollars we give Pakistan every 
year. It befuddles me why we do that when they allow a safe 
haven for terrorists in their own country that invade another 
country, namely, Afghanistan.
    I will yield to the gentleman from Massachusetts for 
further questioning.
    Mr. Keating. Thank you, Mr. Chairman. I share those 
concerns as well.
    I am going to try this again and just to not put you in a 
spot where it is classified. Now, getting back to the caravan 
and the President's comments, he said in terms of the 
terrorists there could very well be--it is a quote, unquote--
among the group. And he said: I think there is a very good 
chance you have people in there.
    Now, given what you know, if there are no people in there 
that you have evidence of, then how could be it be classified? 
So let me just ask you the question. Will you say, no, there 
are no people in there?
    Ambassador Sales. I am not trying to be coy, Congressman, 
but let me tell you, I used to be a law professor, and one of 
the subjects I taught was the Espionage Act. And I know very 
well the criminal penalties associated with public release, 
unauthorized public release of any classified information.
    So I am going to have to defer that question, but I would 
be happy--I want to be responsive to your question. I want to 
get you the information you are asking for. I just want to do 
it in the right setting.
    Mr. Keating. Well, I welcome that information, and I hope 
there is information, because I don't want to waste the 
committee's time or my time to find out there is no information 
there or there is nothing that can be done. So I just want to 
make sure that that is the case.
    Okay. I think that is it for my time, Mr. Chair, and I 
appreciate this. And I will look forward to that what I assume 
will be information.
    Thank you. I yield back.
    Mr. Poe. Well, I want to ask another question.
    Mr. Keating. Thank you. Go ahead. You might as well.
    Mr. Poe. Are there Iranian proxies working with the Iraqi 
police?
    Ambassador Sales. With the Iraqi who?
    Mr. Poe. The Iraqi police.
    Ambassador Sales. Oh, police, with the Iraqi police.
    Mr. Poe. The Iraqi police, the Iranian proxies, are they 
working--some of them have infiltrated the Iraqi police?
    Ambassador Sales. I would be happy to discuss that in a 
closed session.
    Mr. Poe. In a closed session. We are going to have a long 
closed session. We will take you up on that.
    Ambassador Sales. You know where to find me. I am always 
happy to appear before this subcommittee.
    Mr. Poe. Well, we appreciate that and we look forward to 
talking to you again in a classified setting.
    But last thing. I do want to reiterate, we would like the 
list of those Iranian proxies and where they are. And I will 
echo what the ranking member said about the money. The Iranians 
are spending at least $1 billion on causing terror in the 
world. I think they are spending more than that, but they admit 
to $1 billion. And we are spending a quarter of that trying to 
fight their actions.
    I think we are in for a long duration of Iranian terrorist 
activities throughout the world. After all, they are the number 
one state sponsor of terror in the world.
    Did you want to say something else?
    Mr. Keating. One more question. Thank you, Ambassador.
    Can you describe how the Bureau of Counterterrorism is 
addressing the woman's role in preventing counterterrorism 
activities? Specifically, how are you promoting the meaningful 
participation of women as full partners? For example, are you 
working to increase the number of women receiving training 
under the Anti-Terrorism Assistance Program?
    This is something that the full committee's chair, Mr. 
Royce, and I have been working on, as well as Representative 
Frankel from Florida on this issue, and they are not here. If 
you could comment on that, that would be appreciated.
    Ambassador Sales. I would be happy to, Congressman. Before 
I answer that question, let me briefly react to Chairman Poe's 
question about the $1 billion versus the $237 million. It is 
true, Iran is the world's leading state sponsor of terrorism. 
It is a title that they are probably very proud of and it is 
not one they are looking to relinquish any time soon.
    We are spending $237 million. We have requested $237 
million for the CT Bureau. But the entirety of the U.S. 
Government's efforts to counter Iran-backed terrorism is much 
more extensive than just the $237 million we have requested for 
my Bureau. So I would like to contextualize our request in the 
context of the broader USG effort against Iran-backed 
terrorism.
    As for the question of women, this is a very important 
issue, Congressman, and I am grateful to you and your 
colleagues for raising it. It is one we need to focus on very 
carefully. Women are both potential victims of terrorism in 
unique ways, and women are also potential perpetrators of 
terrorism in unique ways, and they are also potential detectors 
of terrorism in unique ways. Let me address that last piece 
first.
    One of the things that my Bureau has done has been to work 
with civil society organizations around the world to help 
families do a better job of detecting the warning signs of 
radicalism. It often will be the case that parents--it often 
will be the case that mothers are in a position to know when 
their children are taking a turn toward extremism. So we need 
to empower those communities, we need to empower those families 
to intervene immediately to prevent somebody from taking the 
next step down the road.
    It is also the case that women can be victims of terrorism. 
We are all aware of the horrific crimes that ISIS committed 
against woman in Iraq and Syria. So it is important for our 
counterterrorism response to ISIS or to other terrorist groups 
that commit similar atrocities, be mindful of what those 
atrocities are so that we can prevent them the next time, so 
that we can empower communities to prevent those--empower 
governments to prevent those sorts of crimes.
    Mr. Poe. The chair is going to recognize the gentlelady 
from Nevada, Ms. Titus.
    Ms. Titus. Thank you, Mr. Chairman. And thank you and the 
ranking member for having this committee hearing, and, 
Ambassador, you for being here.
    I just want to ask about the refugee crisis. We are in the 
midst of the world's worst refugee crisis, and yet the 
administration just recently announced that they were going to 
lower the already record low number that we were accepting from 
45,000 to 30,000.
    In the meantime, you have got the Syrian refugees, the 
Yemenis, Rohingya, some are coming across our southern border, 
coming to our southern border. The President wants to choke off 
admission, limit asylum, and also cut foreign assistance.
    I am wondering how you feel about the refugee situation, 
and as it worsens, doesn't that increase threats of terrorism? 
And do you think these issues are getting enough attention or 
enough resources so that you can do your job?
    Ambassador Sales. Well, we are certainly worried about the 
various refugee flows and their relation to terrorism threats. 
This is not a mere hypothetical. This is a problem that we have 
seen materialize in real world terms.
    The Syrian crisis has precipitated an enormous outflow of 
migrants from Iraq and Syria, through Turkey, through the 
Balkans and other parts of Europe, into the heart of Western 
Europe. And it is regrettable to say, but true to say, that 
ISIS was able to exploit those migrant flows to bring 
operatives into the heart of Europe. Just yesterday was 
actually the 3-year anniversary of the Bataclan attack in 
Paris.
    So I think it is incumbent upon us to do a couple of things 
to address this problem. First of all, we need to get control 
of borders. We need to know if terrorist financiers, terrorist 
operatives, are trying to infiltrate our homeland, whether it 
is here in the United States or Europe. And we also need, in 
the case of Syria in particular, a negotiated political 
settlement that alleviates the humanitarian crisis that is 
causing so many of these people to flee in the hope of a better 
life or for terrorists to exploit that hope to accompany them.
    Ms. Titus. Don't you think that it is moving in the 
opposite direction to cut off aid to the countries that are 
producing these refugees at a time like we have seen, threaten 
to cut off aid to Central American countries? Don't we need to 
address the problem before it gets to our border?
    Ambassador Sales. Well, certainly the best form of 
protection is prevention. And when it comes to terrorism, the 
refugee problems that my Bureau is focused on most intently 
involves Syria, which you have already discussed. Also, the 
problem in Southeast Asia, problem is putting it mildly, with 
the atrocities being committed against the Rohingya. We are 
watching that very carefully as well to ensure that terrorists 
are never able the exploit those tragedies and those atrocities 
to radicalize and recruit.
    Ms. Titus. Are you looking at terrorism in terms of some of 
the rise of groups that are on the far right, like the neo-
Nazis or the nationalists? What about those kinds of terrorism 
groups, are you seeing an increase, not only in this country, 
but it is certainly in Europe?
    Ambassador Sales. Right. Well, we are certainly, the 
administration is certainly watching that threat, and it is one 
that is a very troubling threat. The recent attack in 
Pittsburgh is a particularly heartrending example of this 
domestic threat.
    When it comes to the domestic aspects of this threat, this 
is an issue that my Bureau doesn't really focus on, as our 
jurisdiction is to look overseas. But I can assure you that 
colleagues at Homeland Security and Justice and the FBI are 
focused very intently on that problem, along with State and 
local officials.
    Ms. Titus. But it is increasing in Europe, too, and that is 
part of your domain. I wonder, when you are talking to people 
about addressing this issue, does it ever come up about some of 
the President or the administration's rhetoric as encouraging 
this kind of behavior?
    Ambassador Sales. Well, I can tell you that the 
administration's position on this is clear, it is in our 
National CT Strategy. And this National Counterterrorism 
Strategy describes far right, far left, secular, and various 
other forms of radicalism and extremism that produce violence. 
And we condemn it and lay out a strategy to confront it.
    Ms. Titus. I guess the National Strategy for 
Counterterrorism that was released last month, though, 
mentioned Islamic terrorists 22 times, but the neo-Nazi groups 
only twice, and racially motivated extremism once. So I just 
wonder how much of a priority you are making those kinds of 
terrorists?
    Ambassador Sales. Well, again, I will defer to the FBI and 
DOJ and DHS, but without presuming to speak for them, those 
references are in the National Counterterrorism Strategy for a 
reason, and it is because countering those far right, as well 
as far left groups, and groups in between of violent nature, is 
a priority for this administration.
    Ms. Titus. I hope so. Thank you.
    Ambassador Sales. Thank you.
    Mr. Poe. I thank the gentlelady.
    The chair recognizes the gentleman from New York.
    Mr. Zeldin. [Nonverbal response.]
    Mr. Poe. He yields back his time.
    Ambassador Sales, thank you for being here. We are going to 
take you up on your willingness to talk to us in a classified 
setting.
    And just so it is clear, the three issues that we want to 
talk about are terrorists, if any, in the caravan that is 
moving toward the United States. We want to talk about that. 
And we want to talk about the extent of the Russian involvement 
in Yemen, and also in Afghanistan. And we want to talk about 
the third issue, the Iranian proxies that are in the Iraqi 
police forces.
    Those are the three issues as soon as we can do this.
    Ambassador Sales. Great. We will be ready, sir.
    Mr. Poe. Appreciate it, Ambassador Sales.
    I thank all the members for being here today.
    And this subcommittee is adjourned.
    [Whereupon, at 3:03 p.m., the subcommittee was adjourned.]

                                     

                            A P P E N D I X

                              ----------                              
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
